<html>
<title> - S. 1801</title>
<body><pre>[Senate Hearing 106-713]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-713
 
             S. 1801--PUBLIC INTEREST DECLASSIFICATION ACT

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 26, 2000

                               __________

      Printed for the use of the Committee on Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
66-249 cc                   WASHINGTON : 2000

_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
            Christopher A. Ford, Chief Investigative Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                    Kevin A. Landy, Minority Counsel
                     Darla D. Cassell, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Thompson.............................................     1
    Senator Lieberman............................................     3

                               WITNESSES
                        Wednesday, July 26, 2000

Hon. Porter J. Goss, a Representative in Congress from the State 
  of Florida.....................................................     5
Hon. Daniel Patrick Moynihan, a U.S. Senator from the State of 
  New York.......................................................     9
Steven Garfinkel, Director, Information Security Oversight 
  Office, National Archives and Records Administration...........    14
Steven Aftergood, Director, Project on Government Secrecy, 
  Federation of American Scientists..............................    15
Warren F. Kimball, Ph.D., Robert Treat Professor of History, 
  Rutgers University.............................................    17
Hon. R. James Woolsey, Shea and Gardner, and Former Director of 
  the Central Intelligence Agency................................    20

                     Alphabetical List of Witnesses

Aftergood, Steven:
    Testimony....................................................    15
    Prepared statement...........................................    67
Garfinkel, Steven:
    Testimony....................................................    14
    Prepared statement with an attachment........................    60
Goss, Hon. Porter J.:
    Testimony....................................................     5
    Prepared statement...........................................    29
Kimball, Warren F.:
    Testimony....................................................    17
    Prepared statement...........................................    73
Moynihan, Hon. Daniel Patrick:
    Testimony....................................................     9
    Prepared statement with attachments..........................    34
Woolsey, Hon. R. James:
    Testimony....................................................    20
    Prepared statement...........................................    79

                                APPENDIX

Copy of S. 1801..................................................    84


             S. 1801--PUBLIC INTEREST DECLASSIFICATION ACT

                              ----------                              


                        WEDNESDAY, JULY 26, 2000

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Fred Thompson, 
Chairman of the Committee, presiding.
    Present: Senators Thompson and Lieberman.

             OPENING STATEMENT OF CHAIRMAN THOMPSON

    Chairman Thompson. Let's come to order, please. I think 
Senator Lieberman will join us shortly, but since we have votes 
and Congressman Goss has commitments, I think we should 
probably get started.
    Today, the Governmental Affairs Committee is holding a 
hearing on S. 1801--the Public Interest Declassification Act of 
1999. This bill is only the latest in a series of legislative 
efforts in this Committee growing out of the 1997 report of the 
Commission on Protecting and Reducing Government Secrecy, which 
made very clear that the Federal Government classifies too much 
information too easily and for too long.
    Like so many areas of national security law, information 
classification is a delicate balancing act. It is vital, of 
course, that we protect information if its release would 
threaten our national security. Being too timid about 
classification or declassifying recklessly can be a terrible 
mistake. At the same time, however, if the government 
classifies too much information, the system begins to break 
down and everyone loses.
    Overclassification deprives us of the intellectual 
synergies and public accountability that can come from sharing 
information. It can also lead people to stop taking security 
restrictions as seriously as they deserve to be taken. To 
borrow a phrase from Supreme Court Justice Potter Stewart's 
opinion in the Pentagon Papers case, if everything is secret 
then nothing is really secret.
    Furthermore, even when information is not appropriate for 
public disclosure, overclassification within the government can 
deprive officials of information they need to know by 
restricting access to an unreasonably small number of persons.
    These debates are important because our classification 
system faces a huge and growing challenge. Today, our security 
agencies are subject to an executive order to review for 
declassification everything over 25 years old. This program is 
only just beginning to bring our government's overworked 
declassifiers into the age of ubiquitous photocopiers, computer 
databases, and desktop word-processing, and the resulting 
explosion of classified records that these technologies entail. 
What happens when they reach the age of E-mail, blast faxes, 
and the Internet? The Commission's report concluded that our 
classification system has become unreasonably large and 
complex.
    As Senator Moynihan has previously pointed out to this 
Committee, secrecy is really a form of government regulation. 
In other words, it has its place, but without careful 
oversight, it will do what bureaucracies everywhere do if you 
leave them to their own devices: Expand themselves beyond the 
bounds of reason.
    As a result, Congress has tried twice in recent years to 
enact reforms of the classification bureaucracy. The first of 
these was S. 712, the Government Secrecy Reform Act, which was 
introduced by Senators Moynihan and Helms. That bill, which was 
modified and reported out of this Committee, was an ambitious 
effort to codify many of the recommendations of the Commission.
    While Congress has long regulated the classification of 
nuclear weapons-related data through the Atomic Energy Act, the 
classification of other national security information has been 
left entirely to Executive Branch discretion. S. 712 aimed to 
end this monopoly by establishing for the first time a 
statutory framework for the classification process. Although we 
had been working closely with the White House in developing our 
approach to S. 712, this effort collapsed when sweeping 
administration objections materialized only after the bill had 
left our Committee. A successor bill, S. 22, also languished.
    The bill we are considering today, S. 1801--the Public 
Interest Declassification Act of 1999, is the latest attempt to 
help reform our secrecy bureaucracy. It would establish a 
Public Interest Declassification Board to advise the President 
on declassification policy and upon the identification and 
declassification of records of ``extraordinary public 
interest.''
    As I indicated, our security agencies face a tremendous 
burden with regard to declassification. Having for years 
classified information with great abandon, the government is 
struggling to deal with a huge number of requests for 
declassification. Today, in addition to the 25-year review, our 
security agencies must carry a growing burden on the account of 
the proliferation of so-called ``special searches'' requested 
by the President and by Congress.
    This search process is time-consuming and expensive, and 
devours resources that otherwise might be spent on more 
systematic declassification efforts or on fulfilling basic 
missions, such as intelligence collection and analysis. So, we 
seem to be having trouble getting it right. For years, we 
classified too much for too long. Now we are straining our 
system to declassify old records as rapidly as possible, even 
though we still show no sign of slowing the rate at which 
classified information is created.
    Some worry that we are eating into mission functions by 
devoting increasing resources to mandatory declassification 
programs. Moreover, in our zeal to move mountains of paper out 
the door, we may also be releasing information that should 
properly remain secret. According to Energy Secretary Bill 
Richardson, for example, nuclear weapons-related information 
has been accidentally released as a part of bulk 
declassification programs during the Clinton Administration.
    So, it is a question of striking the right balance, of 
finding a way to release needlessly classified information 
without preventing our security agencies from accomplishing 
their missions or letting sensitive information escape. The 
question for us today is to what degree will setting up the 
Public Interest Declassification Board contribute toward 
achieving that balance?
    We have a fine group of witnesses today, beginning with the 
author of the bill and its most prominent supporter in the 
House of Representatives. I look forward to hearing their 
views.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Mr. Chairman. Sorry to be a 
little late. I just ended a markup in another committee, but I 
am glad I made it here in time to thank you for calling this 
hearing on a very important, complicated and timely subject, 
which is, of course, how our government classifies and 
declassifies information. The question really speaks to the 
essence of our democracy, the citizens' relationship to the 
government, the accountability of those in power to the 
citizenry.
    Of course, it is complicated because we are trying to 
balance the public's right to know with the government's 
concern about information it has which may genuinely be secret 
in the sense--at one point, at least--that its disclosure will 
adversely affect the national interest, particularly the 
national security interest.
    The question before us relates to the expectations, also, 
that government can reasonably set for itself. What volume and 
type of information is it possible to keep secret? Let alone 
the earlier question of what kind of information is it 
appropriate to keep secret and for how long? What kind of 
apparatus do we need to maintain to do so, and at what cost? 
What cost is appropriate or are we willing to assume? Of 
course, the cost of keeping information secret has got to be 
measured in more than financial terms.
    One of the costs is the loss to our historical record, to 
our collective knowledge as a people. So, it seems to me that 
an important goal of declassification is to enable us to 
revisit our history with the benefit of new information, to 
throw more light on past events that have been cloaked in 
secrecy, with the aim of helping us more wisely carry out our 
present responsibilities and better prepare us for the future.
    It seems to me that it is very sensible then, that as we 
rethink all sorts of government regulation and public access, 
which is much in the air here in the Capitol today, that we 
come back to these traditional questions of governmental 
secrecy and declassification guidelines. Hopefully, those 
guidelines will be rational and systematic. They will place 
authority and accountability where appropriate. They will 
judiciously balance public access with authentic secrecy 
requirements, and they will be efficient and cost-effective.
    The arguments for the least possible secrecy in government, 
consistent with our security, are, to me, very powerful; not 
least among them is the enabling effect upon Congress, to help 
us execute our rightful role in the oversight of government 
activities, including national security policy formulation and 
execution. But no less important, as I mentioned earlier, is 
the public's right to know and the enrichment of informed 
public disclosure on issues of vital importance to the health 
and future of our country. The community of scholars that will 
sift through appropriately-declassified public records will 
make a contribution to the public welfare that goes well beyond 
academia.
    Today, our witnesses are extraordinarily able to contribute 
to this dialogue; and, particularly, they will be discussing 
the merits of the Public Interest Declassification Act of 1999, 
which Senator Moynihan has introduced in the Senate and 
Representative Goss has introduced in the house.
    We are truly honored and privileged to have these two 
colleagues with us. As Senator Moynihan nears the end of his 
time in the Senate, I find myself suffering from what 
psychiatrists might call separation anxiety. Since I came to 
this Senate, if I may be personal for a moment, the Talmud 
instructs us, when we come to a new place, to find ourselves a 
mentor, a teacher. And, not by his choice, but mine, he became 
my teacher. I must say that though I am truly privileged to 
serve with an extraordinary group of people here in the Senate, 
that there is no colleague that I have learned more from than 
Pat Moynihan, and I appreciate that very much, including on 
this subject.
    I hope you will not think that I have gone too far if I say 
this, but if I do not say it, it will always be in my mind. I 
was thinking today, coming in, because of the extraordinary 
range of Senator Moynihan's experience in government over the 
decades, in various executive and legislative activities--
ambassador, Senator--who in American history could I go back to 
and try to find comparison. Probably it is because I have been 
reading too much lately in the early part of our history, but I 
go back to John Quincy Adams and maybe Jefferson. So, I think I 
could make a reasonable argument for those comparisons. Anyway, 
I look forward to his testimony on this matter, in which he is 
uniquely prepared, has served as chair of the Commission on 
Protecting and Reducing Government Secrecy which, in 1997, 
unanimously delivered an important set of recommendations on 
reforming our Nation's system for declassifying and classifying 
information.
    Also, Congressman Goss is a very respected member of the 
House of Representatives, an authority on intelligence matters, 
having served for 10 years himself as a clandestine services 
officer at the CIA, chair of the House Intelligence Committee; 
and I must add--it may seem parochial here, too, but I am being 
personal this morning, a native of Waterbury, Connecticut and a 
graduate of Yale University. How much better prepared could one 
be to assume the large public responsibilities that he has 
taken on with such distinction?
    So, I look forward to the testimony today and I thank you, 
Mr. Chairman, for calling this hearing. I hope that we can find 
a way to move this bill and pass it before this session of 
Congress ends.
    Thank you very much.
    Chairman Thompson. Thank you very much. I appreciate your 
comments. I think all of our colleagues share your opinion with 
regard to Senator Moynihan, and certainly we are delighted to 
have Representative Goss also here today, with his wide 
expertise.
    Who wants to go first?
    Senator Moynihan. Mr. Chairman, as we are going to have a 
vote, perhaps it could be that our colleague should go first so 
he can get back to his chores on the other side.
    Chairman Thompson. That would be fine.

   TESTIMONY OF HON. PORTER J. GOSS,\1\ A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Goss. Thank you very much, Chairman Thompson and 
Senator Lieberman. Thank you very much for the welcome 
invitation. Senator Moynihan, thank you for the courtesy of 
accommodating our schedule, as well as yours, I hope.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Goss appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Committee, I am pleased to 
testify before the Committee today in strong support of S. 
1801, the Public Interest Declassification Act of 1999. That, 
of course, is why we are here. Chairman Thompson, you have 
described, I think, very well the problems that we confront, 
that we are trying to remedy. S. 1801 is a remedy. I think it 
is a good remedy. It comes out of the cauldron after much heat 
and much consideration, and I think that we need to get on with 
it. I, for my side, hope that we are able to move it in the 
House, as well, and that is my intent.
    Speaking to the bill for a moment and the problem a little 
bit--and I have submitted a full statement, which I would ask 
be included in the record, and I would try and borrow from it.
    Chairman Thompson. It will be made a part of the record.
    Mr. Goss. Thank you.
    There is obviously a great deal of history on the shelves 
out at the headquarters of the Central Intelligence Agency. 
Some of it is valiant history, some of it is work-a-day 
history, and some of it is just plain embarrassing. All of it 
is American history, however. Much of what is on the shelves at 
Langley remains sensitive and properly secured in vaults.
    In this bill, we in no way diminish the right and the 
obligation of the President of the United States and the 
Director of the Central Intelligence Agency to protect sources 
and methods. I, obviously, take no issue with the bona fide 
harm that may befall our country and those who help us overseas 
if we get it wrong in matters of national security. This is 
serious business.
    But much of what is on the shelves at Langley should be 
reviewed and considered for declassification, because, as the 
Chairman has pointed out, we tend to overclassify, and that is 
another side of the problem we need to address down the road, 
as well. But the systematic declassification of such documents 
over 25 years old is, in fact, ongoing, as we know. The type of 
declassification which is done under the executive order is the 
most thorough and archivally valid method by which can ensure 
that, historically, significant documents can be systematically 
shared with historians and, more importantly, with the American 
public.
    But we can only do that if we get the job done, and the 
size of the job is depicted somewhat in some of the displays we 
are going to see. The more we are diverted from that job by 
other demands on the system, obviously, the less well we do it. 
This bill seeks to create an orderly way to handle those 
diversions and the very big load that has to be processed.
    So, I guess, in a very real sense, the purpose of the bill 
is to bring some order to some chaos, because it needs to be 
done. At present, however, we have no system by which Congress, 
the Executive Branch, and the public can require and expedite 
the review for declassification, called special searches, which 
I think we are all familiar with, for records of extraordinary 
political or public interest. Of course, extraordinary public 
interest is a term of art in this bill.
    The explosion in special-search requests from the Congress, 
the Executive Branch and the American public since 1993 has not 
been cost-free. Since becoming Chairman of the House Permanent 
Select Committee on Intelligence, I have become increasingly 
concerned about the surge in special declassification requests 
and the unanticipated costs associated with those requests, 
because, indeed, based on testimony we have had from the 
community, they mount up and they are sums that could be used 
for other things, as well, obviously.
    In August 1999, I wrote DCI Tenet, seeking information on 
the numerous special searches conducted since 1993. In its 
October 18, 1990 reply to my inquiry, the CIA noted, ``Special 
searches are a growth industry and compete with the mandates of 
many existing information review-and-release programs.'' Simply 
stated, each resource directed to a new special search reduces 
the resources previously dedicated to an existing program. Some 
specific efforts have been deferred in their entirety; examples 
include a number of historical reviews previous directors 
scheduled for action, other efforts, such as Freedom of 
Information, FOIA, requests suffer reduced productivity. That, 
of course, is the public we work for and serve.
    In some cases, however, Congress, policymakers, the 
Executive Branch, and the public cannot and should not wait for 
the painstaking declassification of 25-year-old records. 
Congress needs information for its lawmaking. Policymakers need 
information for their decisionmaking, as we know, and the 
public needs information to ensure that its government is 
accountable and staying on course. That is doubly true when we 
are talking about oversight and intelligence matters, because 
that is a great special trust that the U.S. Congress has 
bicamerally, to make sure that our intelligence activities stay 
entirely lawful and within bounds.
    There are several examples in my written testimony which, 
in the interests of time, I will pass over, of the problems 
with special requests. I will conclude by saying this, the 
Public Interest Declassification Act of 1999 before us 
establishes a structure by which special searches will be done 
once and done right. Declassification needs to be conducted in 
an orderly, systematic and appropriately prioritized and funded 
program. Declassification should not be subject to an arbitrary 
and chaotic political process.
    What this bill does is to provide a means by which we can 
get important historical information as efficiently as possible 
to the American people. In a perfect world, we would overhaul 
the entire classification system, and I think that needs to be 
done. I believe that we do classify too much material, because 
it is the path of least resistance, and I know that from 
experience. If I get a piece of paper on my table and I am not 
sure what to do with it, I put a confidential stamp on it and 
put it in the confidential box, and then it goes in a process 
all its own. Then I will not have to worry about whether I 
released something that was classified that I should not have. 
So, the incentive is to do the wrong thing, and that is 
something we have got to get at.
    But to do this, at this point, is going to be a little bit 
like trying to have the whole meal in one bite. We have got to 
do it one digestible bite at a time. We found that out in 
previous efforts. S. 1801, I think, is a very important bite. 
The Public Interest Declassification Act of 1999 seeks to 
provide Congress, policymakers, the Executive Branch, and the 
American public with more of the history on the shelves at 
Langley, and, in so doing, the bill would also give us more 
confidence that what remains on those shelves is the stuff that 
truly needs to be protected.
    I very much appreciate your attention to my remarks, and I 
look forward to working to bring about the passage of this 
first step toward a more efficient and more orderly 
declassification system that will bring about greater 
accountability and transparency by going to the device of this 
Public Interest Declassification Board, and the legislation 
speaks very clearly for itself, I think, as to what is at 
stake.
    Before I finish, I simply want to pay my very deep respects 
to my colleague from New York, who I have the greatest 
admiration for. I think we are allowed mentors in the House, 
too; and I think we are allowed to trespass slightly. I would 
say that the energy, the experience, the erudition and, of 
course, the wisdom that I hope some of which has rubbed off on 
me in the process of this undertaking, coming from Senator 
Moynihan, is well understood by his colleagues and those of us 
in the House who have the privilege to work with him, as well. 
I thank him very much for his courtesies and help.
    Mr. Chairman, I would be happy to answer any questions.
    Chairman Thompson. Thank you very much.
    We have, I think, about 10 minutes are left on the votes. 
If we might, I suggest we just pose a question or two to 
Congressman Goss, and then we three Senators come back. Is that 
satisfactory?
    Senator Moynihan. Sure.
    Chairman Thompson. Congressman, just basically and quickly, 
could you state what you perceive to be the primary benefit of 
establishing this Declassification Board? Obviously, many 
people would like to go much further, and give the board much 
more authority. Some people say that the board might even 
create additional burdens beyond the ones we have now. How do 
you see this board operating, to help strike this balance that 
we have been talking about?
    Mr. Goss. Simply, I think it will bring order by 
prioritizing requests. I expect that this is going to be a 
board of people who know what they are about. That is very much 
the intent--requirements and all of the details that goes in 
there, how we get this board. I think it is very important. I 
think once we have done that, we have created, in effect, a 
filter that is going to work to process these requests. There 
are, obviously, huge redundancies, and some of the examples I 
did not mention in my testimony; but it is in my written 
testimony.
    I can give you examples of special access requests that 
members of Congress have piled on top of each other when a 
subject of what I will call headline interest has come across 
the scope on the evening news. I can think of one case where we 
had nine special requests. Well, obviously, the information is 
there and everybody may have a different approach to it. But we 
did ask one board to sort those out and to focus on how 
important that really is relative to all of the other things 
that the process is doing in declassification, because we have 
much more to do than we have capability to do at this time.
    Chairman Thompson. Is there reason to believe that the 
Executive Branch or Congress would honor that analysis by the 
board?
    Mr. Goss. I would believe so. I think we have the ground 
rules built in here. We have, basically, a scenario worked out 
in this bill that appears to me to be very practical; and I 
think that the board will have, certainly, accountability. I 
think it will have the opportunity, if it feels it has been 
wronged or its decisions have been wronged, to bring that to 
the attention of higher authorities and, certainly, to the 
public. So, I feel the accountability piece is very well 
answered.
    Chairman Thompson. Thank you very much. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Representative 
Goss, based on your own work as an intelligence officer and 
your work as the chair of the House committee--and I know this 
is a big question--but would you say that we are classifying 
too many documents today?
    Mr. Goss. Yes.
    Senator Lieberman. That was a shockingly direct answer, and 
I appreciate it.
    Mr. Goss. Well, I thought that was a very simple question. 
[Laughter.]
    Senator Lieberman. It is. The second question, on documents 
of 25 years or older, do you think just inherently or 
automatically we ought to be declassifying all of them or 
almost all of them?
    Mr. Goss. No.
    Senator Lieberman. No?
    Mr. Goss. The reason is very simple; 25 years is an 
arbitrary number. I can tell you right now that, in my 
experience, people I was working with who were still active 
more than 25 years ago could be seriously embarrassed or, 
perhaps, put in danger if certain documents were improperly 
declassified. It would be possible, perhaps, to publish or put 
out or make available to the public a heavily-redacted 
document; but it would be a meaningless document. I think 25 
years is an arbitrary number and I think it is a guideline and 
should not be slavishly adhered to.
    Senator Lieberman. But you think that the commission that 
would be created under the legislative proposal would be 
capable of creating some guidelines that would allow us more 
efficiently and cost effectively to sift our way through 
documents.
    Mr. Goss. I really do. That, as far as I am concerned, is 
the purpose of this. We could leave the system the way it is, 
and everybody will be unhappy with it, because it is a push-
and-shove. It is who has the sharper elbows to get in. If 
somebody has more clout or a chairmanship that is a higher 
priority, and that is the special request, that is probably the 
one that will end at the top until maybe the National Security 
Adviser comes in and says, ``I need this now.''
    It is not a good system. Now, nobody is taking away 
prerogatives, but everybody is trying to organize them in a 
more sensible way. The other option is to throw millions more 
dollars at this thing and hire a whole bunch more people and 
try and declassify. We have already done that. We are spending 
a large part of our resources on this. It seems foolish that we 
are out there spending money on paper trails when there are so 
many other needs going unmet. But history is an important part 
of this, and we need to spend money on that to a reasonable 
degree.
    Senator Lieberman. Thank you. That is very helpful 
testimony. Thank you for coming over.
    Chairman Thompson. Thank you very much, Congressmen Goss. 
We will be in recess to give us an opportunity to vote, and we 
will hurry right back.
    Mr. Goss. Thank you, Mr. Chairman.
    [Recess.]
    Chairman Thompson. Senator Moynihan, perhaps we should get 
started again.
    Senator Moynihan. Well, thank you, Mr. Chairman. As you 
know, there is a second panel that awaits you, and I do not 
think I should delay them.
    Chairman Thompson. All right. If you would then proceed, 
please.

 TESTIMONY OF HON. DANIEL PATRICK MOYNIHAN,\1\ A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Moynihan. Sir, I have only a few things to add to 
the excellent statement from Chairman Goss, who is determined 
to see this legislation through. To give an example of what 
bedevils the system, one at the trivial end and the other at 
the very serious end, about 3 or 4 years ago, I received a 
letter from a professor at a midwestern university who was 
writing a history of the Librarian of Congress.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Moynihan appears in the 
Appendix on page 34.
---------------------------------------------------------------------------
    She said she had reason to think that President Ford had 
once offered me this position, but that the matter was 
classified in the Ford Library. They had some material, but 
they needed my permission. Well, yes, and what was classified, 
sir, I was an ambassador to India. On my way back, I was going 
to stop in what was then Peking and stay with our 
representative, George Bush, and Mrs. Bush. Then I was going to 
stop at Pearl Harbor and work out some things, make my way back 
to the United States.
    So I cabled the White House, the Director of Personnel, and 
said, ``These are my travel plans, and I will be in the States 
on such-and-such a date, and I will call you.'' Well, that was 
stamped secret. I can see that it is perfectly sensible to keep 
people's movements in strange parts of the world secret while 
they are moving. But, 20 years later, it is not a secret. It is 
well-known that I made it back, and we had to have a classified 
cable system, which this matter was put on the cable. In the 
Ford Library, this cable was sent to the Department of State, a 
classified officer received it, looked at it, checked it out 
and declassified it.
    Now, please, that is what, of those 612 million pages, 
about 600 million are of that kind of information. Most of 
these were sensibly classified, but they have a very short 
time-life, half-life. In truth, about 12 million should still 
be classified. I mean, there are people you know who have been 
working with you for years in other countries, and they live 
longer than you might think.
    In our original proposal from the commission, which was 
incorporated in S. 712--you were very generous in that regard--
we had an idea that seemed to us central, which was that the 
person who classified a document would put his or her name on 
it, and, at that point, say how long it was to remain 
classified, a judgment that could be changed later on, but you 
would know.
    Now, it is completely anonymous and it never stops. On the 
other end of the serious spectrum, you know about our work on 
the Venona decryptions. Incidentally, sir, this is the largest 
revelation we have ever had about the Soviet espionage during 
and after World War II. I mean, it is just extraordinary to see 
it. It was requested by the Director of the National Security 
Agency and by the Director of Central Intelligence. The whole 
declassification took 19 days. When you want to do it, you do 
it. When it does not happen, it has got somebody that does not 
want it to happen--19 days for this.
    In the aftermath of--and this was done at the request of 
John Deutch and was very profoundly influential on our 
commission study--in the aftermath of that, I found myself 
wondering how could it be that President Truman seemed not to 
know of this? By 1946, the Army security agent broke the first 
of the Venona decryptions. They had different code names. Bride 
was an earlier one. It was just, I mean, knuckle-whitening 
work. You did it with pencil and paper. You were working on 
one-time pads.
    I was in the Navy half-a-century or more ago, and had the 
one-time pads for our ship. You cannot break them. But the 
Soviets got overconfident or overworked, and they began using 
some of them twice, and an absolutely extraordinary man named 
Meredith Gardner, who lives out on Connecticut Avenue--his mind 
is as clear as Easter bells--he was over in Arlington Hall. On 
December 10, 1946, he broke the first cable. They are the names 
of all the physicists at Los Alamos.
    Now, standing over him, sir, providing him with sharpened 
pencils and cups of coffee and so forth was a ciphers clerk and 
Army corporal, a KGB spy. From the instant we broke the first 
cable, the KGB knew. Then came the time when, Kim Philby knew 
of this material. We shared it with the British; and, of 
course, he shared it with the KGB, then he defected. So, then 
we seriously knew that the Soviets knew.
    So, we were in a situation where we know that they know, 
and they know that we know they know. The only person who did 
not know, sir, was the President of the United States. As best 
we can tell--you cannot prove beyond a doubt--but we have 
documents in which the orders come from the newly-created 
Chairman of the Joint Chiefs of Staff, Omar Bradley, that only 
he would tell the White House about this matter, and nobody 
else was to. The FBI was not to. CIA was not. He would.
    This was not political. It was just organizational. He was 
friends with Truman. They were both boys from Missouri, in the 
Army. After all, Roosevelt was always ordering up new 
battleships, and Truman was OK, but, this was Army property. I 
mean, that is just the structural mode that produces this 
morass, and it can have huge consequences.
    Some years later, I was an aide to Averell Harriman, who 
had been very much involved in all of those things, and I know 
for--I mean, I cannot say I know for a fact--but he had no idea 
we knew any of these things. If that is the case then, what is 
the case now? You want to make it a more open system so that 
the people in government get the information they need, not 
just the public. That would be my point.
    As you know, we had a much stronger bill last time. You 
reported it out, and suddenly the administration, which had 
been part of our commission's work, turned against it. That is 
to be predicted. It will not change unless we change it. Your 
point was very well made. Apart from atomic energy information, 
all of the declassification system is based on executive order. 
I have talked to some of the people in the early days, and the 
secretaries just had different stamps in their drawer. They 
would look at something and they would say, ``Well, it sounds 
secret to me,'' or ``It is top secret.'' There was never much 
real thoughtful statement of how you decide which and so forth. 
There is not today.
    I think the commission that we are proposing, qualified 
persons, cleared, will be the first effort by Congress to say, 
``Get yourselves together and stop adding too much to the 
system, and somehow work at declassification.'' Realistically, 
you have a 50-year problem here, and I do not know whether we 
ought to do anything about it; but, certainly, we can start 
slowing down the accumulation.
    That, sir, would be my judgment, and I would be happy to 
answer any questions.
    Chairman Thompson. Well, thank you very much.
    I wish we could take a good part of the rest of the day and 
just listen to your rendition of history with regard to these 
matters. I found it very interesting and enlightening. In 
listening to your accounting of the situation with regard to 
the Chairman of the Joint Chiefs of Staff and the President, I 
am wondering the extent to which we have a problem that is 
based on regulation and official practice, on the one hand, or 
whether it is one just based on human nature, or perhaps 
bureaucratic human nature.
    Surely there was some other reason why President Truman was 
not given this information, I would think. Surely there are 
reasons other than just bureaucratic quagmire as to why these 
things are treated the way they are. Of course, I know you do 
not claim that this legislation is the cure-all for such 
problems--but you do feel that it is a step in the right 
direction, as I do.
    But I am wondering whether or not you agree with the 
assessment that a lot of these problems just have to do with 
the way people are in government, perhaps, and the need for 
better leadership. Until we have someone from the top really 
cracking the whip on these things, are we going to do much 
good? How you envision this legislation will begin to push us 
in the right direction? Could you elaborate on that?
    Senator Moynihan. Well, nothing very cheerful. We do have 
some social science, if you do not mind, on the subject. Max 
Weber, who was one of the founders of sociology, German, turn-
of-the-century, his study was bureaucracy, which was something 
new. They did not have that in the old days. You had uncles and 
cousins and friends. They did not have examinations, and so 
forth. He said right away that secrecy is the primary weapon of 
the bureaucracy.
    They keep information from the parliament and they will 
keep it from the executive. That is their strength. The pattern 
goes on. The fact is that the Truman Library, sir, has no trace 
of any of this information, and they had all the White House 
papers. People like David McCullough, who wrote that fine 
biography, never heard of Venona. I called him up--Venona--huh? 
That should not be decisive, because that name came along a 
little bit later. But Bride was one of the other names, and 
they have none of that, either.
    With the Soviet situation, we did wrap up that whole Soviet 
apparatus by about 1948, but it was the nature of the 
activities that you could not go to court with it because you 
would have to tell how you knew. But Mr. Weisband was convicted 
of traffic violations or something; I mean, never really--got 
him out of the Army, as it were. But the government had reason 
to be satisfied that they were OK; that the Soviet system 
really dates from the 1930's, and it was disappearing fast, as, 
indeed, it did in Britain, too. France, I am not so sure.
    So, the general may not have felt that there was any need 
to give it to the White House, because it was all done. And he 
would be pretty sure, if he gave it to the White House, that 
somebody in the White House would give it to Drew Pearson, and 
that is part of our life, too. But I would have to say sir, and 
I will close, do not expect a President to get interested in 
this. Presidents live day-to-day. They have a short tenure. 
Structural issues of government just do not absorb them. They 
give that to the Vice President, and the Vice President does 
not have much luck getting it done.
    That is not very helpful, but I think a group of informed 
persons, working with ISOO, our Information Security Oversight 
Office, has done a good job. We have the wherewithal. I think 
this legislation would very much help, and I thank you for the 
opportunity and your courtesy.
    Chairman Thompson. Well, thank you very much. I mean, you 
obviously set forth a problem, and I am sure that there are 
very few members of Congress that really fully appreciate the 
problem, much less the American public. Thank goodness we have 
some people that pay attention to these kinds of details and 
follow those things that are happening which, as you point out, 
have consequences. One of the consequences, by the way, is that 
all of these searches are eating into mission function for some 
of these agencies. They are spending time doing this instead of 
doing something else.
    So, you have the overclassification to start with, which 
means that you have more documents to deal with than you should 
have. Then you have the regular 25-year process, with a lot of 
resources devoted to that, and then you have the special orders 
on top of that. Basically, there is no one person or no one 
entity with any oversight or any ideas as to how to coordinate 
all of that. Now we are becoming immersed in paper, and this is 
just the tip of the iceberg, I suppose. Because of modern 
technology, it is going to get worse, instead of a lot better.
    Senator Moynihan. Yes.
    Chairman Thompson. One of the criticisms that has been 
raised is that perhaps, under this bill, the proposed board 
would be able to make recommendations to the President to 
declassify records in response to the interest of the public in 
a national security matter. Does this mean that the board 
itself could end up becoming the source of additional special 
search requests?
    Senator Moynihan. Well, I would hope that legislative 
history would make it clear that we do not intend that. That is 
one of the problems we are trying to deal with, and this board 
has no power of its own to declassify anything. When you say 
they will recommend it to the President, what you mean is they 
will recommend it to the National Security Adviser. Every so 
often, some things may come along which should be opened up. 
Sir, put it this way, more is at issue here than the efficiency 
of our bureaus and agencies.
    A majority of American people, the American public, think 
that the CIA was involved in the assassination of John F. 
Kennedy, and that was before that movie which showed it 
happening. I was in the White House in that Southwest Room, 
just down the hall from the Oval Office, with about eight 
people when the word came the President was dead. Pretty dicey 
moment. Half the Cabinet was in a plane crossing the Pacific on 
the way to a Cabinet meeting with the Japanese; the President 
and Vice President in Dallas.
    In the afternoon, we picked up on the news that the Dallas 
police had arrested a man who was known to be involved with 
Fair Play for Cuba. I met the Cabinet plane that arrived. They 
just turned around and came back to Andrews that evening, and I 
stood there at the bottom of the ramp, saying, ``We have got to 
get hold of this man. He will not get out of that jailhouse 
alive. The FBI has to go in there or the Secret Service and get 
him; and if we do not get him, what will we have? A conspiracy 
theory we will live with forever--I mean, for ages.''
    Then he was shot--Oswald. Then the President appointed the 
Warren Commission. I went around, seeing people on the Warren 
Commission. I had with me a just-republished volume, about 5 
years earlier, of the 1880's, which demonstrated that the 
Jesuits had been behind the assassination of Lincoln. A century 
gone by, it was still in circulation. I said, ``Do you want 
more of this?''
    We do not. But the Warren Commission kept its papers 
classified. You could start weeping at this. It matters that 
people do not trust government. I do not have to tell that to 
you, sir. Sorry. I do not want to get carried away. We have 
some important witnesses to hear.
    Chairman Thompson. Well, what you are saying, though, is 
very, very important. Thank goodness you have other outlets and 
forums other than this to speak about this. I know you will 
continue to, and I hope that you will, because what you have to 
say on this subject, as well as many others, is something the 
American people need to hear. So, thank you so much for your 
service. Thank you for this, and thank you for being here today 
with us.
    Senator Moynihan. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    I would like to recognize our second panel of expert 
witnesses. Steven Garfinkel heads the Information Security 
Oversight Office at the National Archives. Steven Aftergood is 
the Director of the Project on Government Secrecy at the 
Federation of American Scientists. Dr. Warren Kimball is the 
Robert Treat Professor of American History at Rutgers 
University and the Former Chairman of the Foreign Relations of 
the United States document series. James Woolsey--and I do not 
believe Mr. Woolsey is here yet--is the Former Director of the 
CIA.
    Gentlemen, thank you very much for joining us here today. 
Please proceed to make any opening comments that you would care 
to make.
    Mr. Garfinkel.

    TESTIMONY OF STEVEN GARFINKEL,\1\ DIRECTOR, INFORMATION 
   SECURITY OVERSIGHT OFFICE, NATIONAL ARCHIVES AND RECORDS 
                         ADMINISTRATION

    Mr. Garfinkel. Thank you, Mr. Chairman. I am very pleased 
to appear before you today to express strong support for the 
enactment of the Public Interest Declassification Act of 1999, 
as that legislation has been modified to meet the concerns of 
the administration. I speak on behalf of the administration, 
and from my perspective as Director of the Information Security 
Oversight Office.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Garfinkel appears in the Appendix 
on page 60.
---------------------------------------------------------------------------
    My support arises from my belief that the establishment of 
the Public Interest Declassification Board could not come at a 
more propitious time. Under the policies of Executive Order 
12958, issued in 1995, the agencies of the Executive Branch, to 
their great credit, have declassified many hundreds of millions 
of pages of classified information.
    I call to your attention the chart that is attached to my 
statement,\2\ and now posted as an exhibit, which illustrates 
the enormous progress we have made to date and the challenges 
that remain. To many interested observers, this progress in 
classification, while laudatory, is only the beginning of what 
needs to be done to make available to the American people those 
heretofore-secret archives of governmental activity.
---------------------------------------------------------------------------
    \2\ The chart referred to submitted by Mr. Garfinkel appears in the 
Appendix on page 66
---------------------------------------------------------------------------
    To other observers, declassification has proceeded at too 
rapid a pace, outstripping our ability to be certain that we 
are not opening up information that needs to remain classified 
in order to protect our national interests, and at a cost that 
is too expensive to maintain on an annual basis. The 
establishment of the board offers the opportunity, at a modest 
cost, for a panel of experts to provide its immediate and 
continuing evaluation of these policies and their 
implementation.
    The timing could not be more critical. In January 2001, a 
new President will take office. Because the security 
classification system has historically been based upon 
executive order, the new President will very quickly receive 
conflicting advice about what should be done with respect to 
the policies of Executive Order 12958. The existence of this 
board of experts suggests that any action that the President 
ultimately takes will benefit from a reasoned and reasonable 
analysis of the myriad options that will be urged upon our new 
President.
    The creation of the board portends another positive 
development, a more objective analysis of special 
declassification projects before they are enacted. While each 
of these programs may be argued to be in the public interest, 
each also has a negative impact. Most significantly, the 
diversion of tremendous resources away from programs like 
systematic declassification and Freedom of Information actions.
    I am not suggesting that all special declassification 
programs should be avoided. What we should try to avoid, 
however, are situations in which the interests of the few take 
precedence over the interests of the many. The board will be 
particularly well-suited to provide its expertise on these 
matters.
    The board should also contribute significantly to 
classification management and policy. We remain in a 
transitional period between the Cold War era and the post-Cold 
War era as far as our national security policies go. Moreover, 
we are in the midst of a technological revolution whose product 
is greatly enhanced public access to information. The policies 
and decisions that we are making with respect to security 
classification are now more difficult and problematical. The 
board's insights will bring a welcome perspective to this 
complex environment.
    Mr. Chairman, as I stated above, the establishment of the 
Public Interest Declassification Board could not come at a 
better time for providing expert advice on the controversies 
inherent in government secrecy and classification-and-
declassification policy. Over the past several years, the 
board's input would, in my view, have been most welcome and 
helpful; for example, when the Congress considered the impact 
of our declassification program on the protection of 
information classified under the Atomic Energy Act; or when the 
Congress and the administration have considered the 
establishment of new special declassification projects; or as 
the Congress now considers legislation that would establish a 
new criminal provision for the unauthorized disclosures of 
classified information. As a new Presidential administration 
assumes office, such examples will surely multiply. Therefore, 
on behalf of the administration, I most strongly recommend your 
positive action on S. 1801.
    Chairman Thompson. Thank you very much. Mr. Aftergood.

    TESTIMONY OF STEVEN AFTERGOOD,\1\ DIRECTOR, PROJECT ON 
     GOVERNMENT SECRECY, FEDERATION OF AMERICAN SCIENTISTS

    Mr. Aftergood. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing. In the 2 years since this Committee 
last dealt with government secrecy, government secrecy policy 
has not been standing still. Unfortunately, in some important 
respects, government secrecy has actually been increasing. For 
example, 2 years ago, in fiscal year 1998, the total 
intelligence budget was unclassified. This year, it is a 
classified national security secret.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Aftergood appears in the Appendix 
on page 67.
---------------------------------------------------------------------------
    Why should that be so? I am sure there is an explanation. I 
doubt, however, that it has anything to do with national 
security. At the same time that secrecy has been increasing in 
some respects, it has also been growing less effective in other 
respects. One important example, I think, is the history of the 
Central Intelligence Agency's 1953 covert action in Iran. That 
is a 200-page document that was ordered declassified, I 
believe, by DCI Woolsey back in 1993.
    Last year, the CIA testified in a Freedom of Information 
proceeding that the entire history had to remain classified, 
with the exception of one single sentence. Fortunately, in my 
view, the entire document was then leaked to the New York 
Times, which published it on the Times website. I think just 
about any independent observer would agree that the CIA's 
classification judgment--and it was a judgment, it was not a 
matter of failure to deal with it or lack of resources--the 
CIA's classification judgment was in error.
    At any rate, what we are seeing is a growing number of 
leaks, more voluminous, more substantial. So, there is 
certainly a role for congressional action on this front; and 
although I personally have been a little bit disappointed by 
the diminishing scope of the successive versions of this 
legislation, I still believe that it could potentially play a 
very important role.
    I would say that, unlike some of the other panelists, I do 
not consider the prioritization of special searches to be a 
very important function at all, particularly given the fact 
that the board will not be able to enforce its recommendations. 
I just do not think that is a very important function.
    I think, however there are at least a couple of other 
functions that are very important and that this bill would, as 
written, help to advance. The first is that the proposed board 
could serve as an independent, internal Executive Branch 
advocate for the kind of secrecy reform that I think everybody 
agrees is necessary. The board could advance the proposals of 
the Moynihan Commission. It could monitor the implementation of 
the executive order. It could point out problem areas. It could 
develop bold new ideas of its own and float them within the 
Executive Branch. It could advocate funding for 
declassification in the budget-development process.
    A second sort of parallel mission area for the board would 
be to monitor the development of secrecy policy within 
Congress. There has been lots and lots of secrecy policy 
development in the form of legislation just in the last 2 
years. More often than not, it is never subject to public 
hearings. Nobody gets a chance to comment on it. This board, I 
think, could play a useful role in monitoring the development 
of secrecy-related legislation in offering an independent 
judgment on what is wise and what, perhaps, is less wise.
    Those are very useful functions, and they do not currently 
exist to the extent that they might; and, for those reasons, I 
think there is sufficient justification to proceed with this 
legislation. I would respectfully recommend that it be adopted.
    Thank you.
    Chairman Thompson. Thank you very much. Dr. Kimball.

    TESTIMONY OF WARREN F. KIMBALL,\1\ Ph.D., ROBERT TREAT 
            PROFESSOR OF HISTORY, RUTGERS UNIVERSITY

    Mr. Kimball. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak to the Public Interest Declassification 
Act of 1999. I first do want to assure you that the decoration 
on my nose did not come about as a result of hand-to-hand 
combat on a declassification issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kimball appears in the Appendix 
on page 73.
---------------------------------------------------------------------------
    At any rate, I really do believe that this legislation 
would be in the national and public interest. It is my firm 
conviction that this act, and the board it would create, will 
improve our ability to protect important national security 
information. At the same time, it will promote public 
confidence in government by maintaining an expanding knowledge 
of the history of how national security policy was developed 
and implemented.
    Moreover, the legislation takes a significant step toward 
cutting the excessive costs of maintaining the security of 
classified information. How does the bill accomplish all of 
that? I mean, is it nothing more than a piece of innocuous 
legislation that just follows the Hippocratic Oath: Do no harm? 
If it is just like chicken soup, you know, might help, cannot 
hurt, then why create another government board that may live 
long after everyone has forgotten why or even that it exists?
    Were that the case, I would oppose creation of the board as 
a piece of smoke-and-mirrors that only distracts from effective 
reform of our government's declassification programs. But that 
is not the case. The Public Interest Declassification Board 
will inform and improve the healthy debate over what should and 
what should not be kept secret. The board would also help to 
limit the plethora of special searches, those boutique 
declassification efforts that devour resources that should go 
to systematic declassification review.
    Some of those special searches have been legitimate. Some 
have been trivial. Many have been repetitive and unrewarding, 
as illustrated in some of the exhibits before you. All have 
been exorbitantly expensive in both money and work hours. All 
were or should have been unnecessary. If effective, routine, 
comprehensive systematic declassification review were in place 
for all agencies, and if the public believed in the integrity 
and thoroughness of those review processes, then important 
documentation, such as what was uncovered by the Nazi gold 
search, would be routinely reviewed and declassified without an 
expensive special search.
    The board established by this legislation will be able to 
foster the development of effective, comprehensive systematic 
declassification review programs for historical documentation 
by gathering information on best practices and by reporting on 
progress made. At the same time, the board would assess the 
effectiveness and reasonableness of an agency's 
declassification review program and recommend remedies for 
shortcomings, thus building public confidence in the process.
    But until that effective government-wide systematic 
declassification review exists, special searches will and 
should continue to be proposed, so long as there are legitimate 
and important reasons. But how can Congress and the White House 
best decide which specials will be legitimate and which will 
release important new information in which will not? How can 
the public--media, researchers, pressure groups, individuals--
be assured that their government is not hiding the truth for 
the wrong reasons? The answer is provided by this bill.
    The Public Interest Declassification Board could and should 
study any proposed special search, evaluate the results of 
similar previous declassification efforts, examine the still-
classified documentary record, and then report to the President 
and Congress. Mr. Chairman, you asked earlier why we should 
think that this board would be listened to, and I think that 
kind of a process that I outlined would give the board such 
credibility that, I think, Congress and the Executive Branch 
would heed it.
    In any event, that would provide Congress and the Executive 
Branch with a validation from an independent public board of 
the legitimacy of the request, and provide expert advice on 
establishing priorities for those specials that should be 
implemented. I spent 23 years in the Naval Intelligence Reserve 
and have been a member of the State Department Historical 
Advisory Committee for 9 years, 8 years as chair. I have come 
to appreciate the complexity of declassification issues, even 
for historical information that is 25 years old or older.
    So, before going any further, let me emphasize two points. 
First, this legislation does not change the current approach to 
systematic declassification review, which is aimed at 
historical records that 25- and 30-years-old. It is not aimed 
at current plans, operations, and current intelligent 
activities. Second, declassification review is not the same as 
declassification. Nothing in this bill changes the current 
practice that puts declassification decisions in the hands of 
the agency that has ownership or equity in the information. 
Nothing in this legislation threatens to change current 
information security procedures. Special compartmentalized 
intelligence, SCI, is, quite appropriately, given special 
attention; nor can the board declassify anything. It can only 
examine, assess, advise and report.
    Sensible, practical standards and guidelines for 
declassification review can be and have been established. Since 
the early 1990's, systematic declassification review by the 
State Department has opened up 95 percent of its historical 
records. Using the most-important-first, rather than an 
easiest-first approach, State Department reviewers have opened 
highly sensitive records of our diplomacy, as well as 
intelligence records, all without a single reported breach of 
national security.
    As an aside, to dispel rumors of security breaches caused 
by the systematic declassification review program currently in 
effect, the head of the Department of Energy's Information 
Security Program has stated that he has not uncovered any 
inadvertent disclosures of classified information due to the 
systematic declassification reviews conducted under the current 
executive order.
    Yet, with only one exception--the Air Force has put a 
successful program in place--the State Department is the only 
major agency or department that has reviewed and declassified, 
where appropriate, its historical records and made them 
available to the American public. During the now-ended Cold 
War, foreign and national security policy became the 
responsibility of a great many agencies and departments outside 
of the State Department, yet those agencies have not 
implemented similarly successful declassification review 
programs. That means that Americans and the representatives in 
Congress do not have comprehensive access to the record of 
national security policy from 25-and-more years ago, at the 
time when Gerry Ford was President.
    Perfection is the enemy of progress. No declassification 
review system can be perfect. To try to do so would be neither 
possible, nor desirable. The cost alone would be staggering, 
the effect on our democratic society even greater. Democracy is 
not a suicide pact. No one wants properly-classified 
information to be inadvertently released. But there is little 
risk of that happening when declassification review programs 
are applied, with the rigor of that implemented by the State 
Department.
    This bill would not create instant public accountability 
for intelligence agencies, the Department of Defense or even 
the State Department. Individuals will instinctively try to 
cover embarrassment, unethical conduct and foolishness by 
classifying the information that exposes their conduct. But if 
we can move a step closer to opening the historical records to 
the scrutiny of the American public, we will have won a battle 
in what is an ongoing struggle.
    At some point, the door must swing open wide enough or the 
very democracy that government officials and intelligence 
operatives are protecting is no longer a democracy. These are 
serious issues for the republic that are worth an informed, 
responsible debate, something the Public Interest 
Declassification Board can facilitate. I have lots of guesses, 
I think reasonably-educated guesses, as to why there are not 
fully-implemented, systematic declassification review programs 
in all the agencies. But that is something that this Public 
Interest Declassification Board could help to create and could 
study the issue and provide careful, well-researched answers 
and recommendations for remedies.
    I have proposed three small amendments to the bill, Mr. 
Chairman that I will not go over here; but, fundamentally, they 
are specifically designed to improve the credibility of the 
board, because it seems to me that if the board is to function 
effectively, it must have the confidence of the public that it 
is independent. I should say that the American Historical 
Association and the Society for Historians of American Foreign 
Relations have both gone on record very strongly as favoring 
systematic declassification review. I strongly endorse this 
legislation as a meaningful step in the further development of 
a rational, responsible, cost-effective, government-wide 
program for the declassification review of that mountain of 
historical documentation that threatens to bury us.
    To quote you, in your opening statement, ``If everything is 
classified, there are no secrets.''
    Thank you.
    Chairman Thompson. Thank you very much. Mr. Woolsey.

 TESTIMONY OF HON. R. JAMES WOOLSEY,\1\ SHEA AND GARDNER, AND 
       FORMER DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY

    Mr. Woolsey. Thank you. Mr. Chairman, with your permission, 
I would submit my testimony and summarize just briefly from it 
in these oral remarks.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Woolsey appears in the Appendix 
on page 79.
---------------------------------------------------------------------------
    Chairman Thompson. It will be made a part of the record.
    Mr. Woolsey. It is an honor to have been asked to testify 
before you on S. 1801. Let me say that, first of all, although 
the tools that are proposed by this bill are relatively modest, 
it seems to me to be a positive attempt to begin to come to 
terms with one of the most vexing problems in this important 
field of government secrecy, the issue of special searches. In 
time, it seems to me that it might be considered by this 
Congress that this board should undertake other duties and 
responsibilities. But this is, at least, a useful and important 
beginning, it seems to me.
    I also believe that it is the beginning of wisdom in this 
area, to recognize that there is a need both for reform, on the 
one hand, and for caution and experimentation on the other. 
This bill seems to me to be crafted in that spirit. Reform is 
important because, in many ways, I think the system is broken 
and soon will be even more so, as the digital age adds reams of 
new records, E-mails to mention only one.
    It is obvious that much of this classified material would 
be useful to historians and other citizens for a range of 
important purposes, but it is also equally obvious that some of 
it was improperly classified in the first place. I have had two 
recent examples; one, I ordered the declassification, as Mr. 
Aftergood said, of a number of files on covert actions during 
the Cold War, when I was DCI in 1993 and 1994. Some of that 
material has been released. Some of it, it was said 
subsequently, did not exist any longer in the government's 
files. Some, I had remembered, regarding with Iran, had been 
lost inside the government. But Mr. Aftergood, I am sure, is 
correct in saying that it was intentionally withheld.
    In any case, once it was released through a leak, after 
reading it, I can see no good reason why that fascinating 
history of the 1954 coup in Iran had not been released. I am 
sorry it had to be released through a leak, but I think 
substantively it was a good thing for history, for people to 
understand what actually happened.
    Also, I have recently represented several Iraqis in an 
immigration case in which the men were imprisoned because 
secret, classified evidence was introduced unilaterally by the 
government. After several influential Senators wrote to the 
Attorney General about this matter a couple of years ago, the 
government, in effect, said ``whoops'' and released about 90 
percent of the evidence that it had previously classified, 
saying that it had been improperly classified; yet six men 
spent 2 years in prison and two men are still there, in no 
small measure because of this improper classification. So, I am 
personally acquainted with a number of cases in which I think 
classification has been excessive.
    On the other hand, there is good reason for the government 
to be cautious with the release of some types of information, 
and it is not only the operational files of the Deputy 
Directorate of Operations or Special Compartmented Information. 
Frequently, material, not only direct operational material, but 
other intelligence, must be protected for many decades, not 
only 25 or 30 years, because often the substance of what is 
known about a foreign government or the time at which it was 
known can indirectly lead to the betrayal of, for example, an 
agent's identity or a broken code; and these sorts of things 
have to be assessed carefully by experts.
    Most importantly, much of what the U.S. obtains in 
intelligence is obtained through liaison relationships, 
essentially trading intelligence with foreign countries; and 
those valuable relationships will dry up if we release 
material, even 25 or 30 years or more after the fact, without 
the permission of that Foreign Intelligence Service from which 
it was obtained. I dare say that any American who was a tourist 
in Jordan at the beginning of this year and whose life might 
well have been saved by the very professional and cooperative 
Jordanian intelligence actions that thwarted terrorist actions 
against American targets at the beginning of the year, would 
probably not be an advocate of releasing material received from 
Jordan without Jordanian consent, thereby undermining U.S.-
Jordanian intelligence cooperation in the future.
    Because of the complexity of these judgments and issues, it 
seems to me that reforms need to be very carefully considered. 
In my judgment, they should not be based generally, at least in 
the intelligence area, on broad and automatic rules, such as a 
certain number of years since a document was created. They need 
to be tailored carefully to protect what has to be protected 
for sound reasons, and also to release whatever else can be 
released as promptly as possible.
    In this overall context, it seems to me that the Public 
Interest Declassification Board established by the bill is a 
positive step. As I said, its role may change over time, and it 
needs to accustom itself, it seems to me, to experimentation, 
trial and error. Special searches have certainly been overdone, 
but they can, from time-to-time, be valuable tools. The board 
will not be able to achieve an appropriate balance, even on 
this issue, on its own, because it can only make 
recommendations. But even some cutting down of duplicative 
searches will be a step in the right direction for the very 
hard-pressed professionals in the agencies who are trying to 
deal with this problem.
    I finally would say, Mr. Chairman, that I believe it would 
be useful, as Professor Kimball suggested in his written 
remarks, for the board to meet at least two or three times a 
year and to consist of persons other than current officers or 
employees of the U.S. Government. I would also suggest that it 
be selected with an eye toward diversity of experience. There 
should be both historians, for example, and former intelligence 
and military officers; for it is only out of debate about this 
type of very difficult subject--debate between people of 
goodwill who both have something to teach and the humility to 
realize that they also have something to learn--that we are 
likely to get any useful recommendations for improving the 
current, very unsatisfactory system.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much, Mr. Woolsey. Thank 
you all.
    Mr. Aftergood, I know that you are a strong advocate of 
more government openness. I wonder how you view this discussion 
concerning special searches. Many people, including some of our 
witnesses, have argued that special searches actually cause 
harm by draining resources from other declassification budgets 
and occupying manpower and so forth. Do you agree with this 
critique of the special search process? To what extent do you 
oppose or support what is happening now--especially Congress' 
actopms--with regard to special searches?
    Mr. Aftergood. A couple of points. I generally favor a 
systematic approach to declassification. I think that is the 
most efficient and most equitable means to meet the needs of 
the largest number of people. On the other hand, there are 
cases, as Mr. Woolsey pointed out, where special searches can 
be the most appropriate means to address particular, urgent 
information needs. So, the answer is balance; a balance has to 
be struck. There is a need for discipline, not simply in the 
Executive Branch, but also in the Congress.
    Congress should not be asking for things that it is not 
prepared to fund. The current proposal is not entirely 
satisfactory to me, because it basically is limited to 
recommendations; and if people have a powerful constituency 
behind them that are pushing for a special search, then the 
recommendation of a board, no matter how distinguished, is not 
going to be enough, I think, to neutralize that political 
pressure. So, balance is the answer. I think, with or without 
the board, a balance will be found.
    Chairman Thompson. Well, obviously, a board is not going to 
solve all of our problems.
    Mr. Woolsey, I wonder what you think of that. Clearly, you 
have mentioned some instances here where special searches are 
in order and the only way to get to the bottom of some of these 
matters that need to become public. On the other hand, of 
course, we seem to be inundated by a bunch of maybe less-than-
meritorious special searches. How should we be dealing with 
this?
    Mr. Woolsey. I would hope that the board's recommendations 
would help the Congress and other sources of special searches 
to limit those searches to circumstances where they really are 
necessary and to stop the redundancy. There have been a number 
of these areas that have been searched many times. I realize 
the board does not have the power to do that, but if it is 
sufficiently prestigious and is listened to, it may have some 
influence.
    Chairman Thompson. Excuse me. Senator Moynihan had some 
charts,\1\ I believe it is his charts, where showing that with 
regard to certain issues in El Salvador, there were 9 special 
searches; for Guatemala, 12; and for Honduras, 7--all under the 
category of ``repetitive.'' Is that what you are talking about?
---------------------------------------------------------------------------
    \1\ The charts referred to submitted by Senator Moynihan appear in 
the Appendix on pages 43-59.
---------------------------------------------------------------------------
    Mr. Woolsey. That is it exactly. The problem is these 
issues become politically salient, and a number of different 
people, basically, want to say, ``I have ordered a search,'' 
So, we get a lot of redundancy, and that is not a good use of 
the time of the professionals who have to do this. As I said, 
in the intelligence area, I think a rule-of-thumb is dangerous, 
especially if that rule-of-thumb is one that is measured in 
years.
    Now, the operational files of the Deputy Directorate for 
Operations and some in Compartmented Intelligence have been 
exempted from the automaticity, but that is not all, I think, 
that should be exempted from the automaticity of being released 
after a certain number of years. But it does seem to me to be 
incumbent upon the government, if there is intelligence 
information--whether it is from the Cold War, covert actions, 
or older estimates of the Soviet Union, when the Soviet Union 
does not exist anymore--that can be released, it has to be gone 
through very carefully. The professionals ought to be spending 
their time working on releasing as much of historical 
intelligence as can be released without endangering current 
sources and methods and making the difficult judgments that are 
often entailed there, instead of doing one of these special 
searches for the fourteenth time.
    Chairman Thompson. Perhaps more subject-matter oriented 
than just a broad chronological----
    Mr. Woolsey. I think so. There probably are some areas, Mr. 
Chairman, where the chronological rule is a perfectly decent 
rule-of-thumb, but I do not think intelligence is one of them. 
But I think that it is incumbent on the intelligence community 
and, I think, on the Congress that funds it--in order to be 
doing a decent job for the historians who need to understand 
what happened in Iran in 1954 and the rest--to use the 
government's resources in this area wisely and in a balanced 
way.
    It seems to me that something that inclines toward, even if 
it does not absolutely require, a reduction in the redundancy 
of some of these special searches, thereby freeing up resources 
to focus on making the difficult and important judgments that 
are required in the releasing of other intelligence information 
without automaticity, would be a reasonable thing for this 
board to encourage and for the government as a whole to do.
    Chairman Thompson. Mr. Garfinkel, you have been Director of 
the Information Security Oversight Office for many years, 
including the period in the 1990's when the administration was 
undertaking bulk declassification projects. It is my 
understanding that bulk declassifications at the Energy 
Department resulted in the inadvertent disclosure of classified 
information relating to nuclear weapons, and that accidental 
disclosures of national security information from other 
agencies, as a result of declassification programs under 
executive order, have also occurred in several instances.
    To the extent that you can discuss these matters in open 
session, can you describe how the most serious of these 
incidents occurred, and how you think we can properly safeguard 
against such problems in the future as we try to declassify the 
mountains of classified information that our government has 
produced?
    Mr. Garfinkel. Mr. Chairman, I believe that we need to use 
reasoned judgment, and as we have taken very radical new steps 
in our declassification program, we have learned a great deal 
over the course of the past several years. I think what we are 
doing now, which is to identify those particular files that are 
most susceptible to the inclusion of mismarked atomic energy 
information, should suffice to prevent any release of 
information that could cause damage to our national security. I 
have also been very much aware that there are occasions when 
bulk declassification makes a great deal of sense. I have used 
the example that came very early in my own career when I was 
asked to participate in the systematic review of a number of 
procurements of uniforms and boots and what-have-you during 
World War II. I was escorted to a room--not a room--I was 
escorted to a three-football-field-length area at the Suitland 
Federal Records Center full of classified records dealing with 
classified procurements of clothing during World War II and all 
kinds of material that clearly no longer had any sensitivity. 
Were it not for the opportunity to bulk declassify those 
documents, I suspect I would have spent my entire career in 
that room, reviewing those records, and would not be before you 
today.
    Chairman Thompson. Mr. Woolsey, to what extent is 
inadvertent declassification a problem? We know that it has 
happened in times past, but how should we view that? Is it a 
major risk, do you believe? Factor that into the overall 
assessment.
    Mr. Woolsey. We have a case, I think the one you asked Mr. 
Garfinkel about. I believe that in the aftermath of President 
Clinton's first executive order on this, the declassification 
process in the Department of Energy resulted in the release of 
some 10 or 12 documents that had Restricted Data that was still 
important in them, and that caused, I believe, some changes in 
the process. So, it does happen.
    Normally, in intelligence areas what has happened is that 
the intelligence community has fought hard against having its 
records included in automatic declassification areas. As I 
said, it has succeeded to some extent. So, I cannot think of--
immediately--any major problems that have arisen from 
automaticity, with respect to things like the Directorate of 
Operations' files.
    Chairman Thompson. I take it that the particular 
inadvertent releases we are talking about for the Energy 
Department of Information was not under one of those exclusions 
that cover intelligence----
    Mr. Woolsey. I think that is correct. I think it was 
pursuant to the President's executive order, whatever that is--
one-two?
    Mr. Kimball. The one before the current one.
    Mr. Woolsey. The one before the current one, the one back 
in 1993, 1994. I do not recall the number of it right now.
    Chairman Thompson. There are, obviously, some very 
sensitive documents that are not, perhaps, within the 
intelligence exclusion, per se. Is that what you are saying?
    Mr. Woolsey. Absolutely, and they can get caught up in the 
automatic release, as apparently these 10 or so did. But there 
certainly are cases, such as the one Mr. Garfinkel mentioned, 
where any reasonable common sense would say we could save a lot 
of time by having an automatic rule. The problem is this is not 
an area where generalizations hold for long. A lot of people 
believe that as long as what you are declassifying in the 
intelligence arena is estimates or assessments, rather than 
operational data, it can be done rather freely and easily; and, 
indeed, people leak intelligence assessments, in part, because 
they think there is no real harm to it. Whereas, in fact, 
depending on how it is written, it can be extremely damaging to 
intelligence sources and methods because of the combination of 
the substance of what is in the assessment and the timing, the 
time at which one knows it or is known to have known it.
    So, even things like the estimates dealing with the Soviet 
Union that my predecessor, Bob Gates, ordered released, or the 
covert action files that I ordered released, those cannot be 
done by a rule-of-thumb, either. They really need professionals 
going through. Now, professionals make misjudgments. I think 
whoever looked at this Iranian 1954 file and decided it had to 
all be withheld made a bad judgment. So, you really do need to 
have smart people who know the business and have general 
guidance, and who have both the respect for the public's need 
to know and a professional concern about not damaging 
intelligence sources and methods. You have to have them go 
through these documents carefully if they have anything to do 
with intelligence, and also in some other areas as well. That 
takes time, and it is not easy.
    Often, these are retirees who are brought back on contract, 
but one has to pay them. If you want people of that caliber, 
when you have to have people who know what they are doing going 
through these documents, it is expensive.
    Chairman Thompson. Dr. Kimball, first I will thank you for 
your suggestions on improving this legislation. In your 
testimony, you argued that, with the exception of the State 
Department, most government agencies holding classified 
information have not developed a very good systematic review 
program. Do not quite a few specific committees, boards and 
panels already exist to give the principal agencies advice on 
this sort of thing? Is this not what your own State Department 
Historical Advisory Committee did for the State Department? If 
panels, such as your committee at the State Department, can do 
such good work in helping their agencies develop proper, 
systematic review efforts, should we not be trying to get the 
other bodies that already exist to offer better advice, rather 
than, perhaps, just creating another organization?
    Mr. Kimball. There is a difference in nature of these 
bodies. The State Department Historical Advisory Committee and 
this board that would be created exist because Congress has 
passed a law creating them. As far as I know, there is no other 
historical advisory board to any government agency related to 
classified material that exists, except the State Department 
committee. That makes it a bit more bulletproof. Not too many 
years ago, one of the intelligence agencies was unhappy with 
the advice it was getting from its--well, it does not call it 
an advisory board, but its historical study group, whatever it 
was called--and suddenly that agency decided that there were 
term limits for the members of that advisory group. Three of 
them left almost immediately.
    Now, maybe that was a coincidence, maybe not. All I know is 
that I think that group has got the message. So, therefore, 
they were not able to act in the public interest the way I 
think they should. The Foreign Relations Act of 1991 created a 
special situation, whereby Congress went a small, but 
significant, step in the direction of saying what should be 
declassified. It was very general, but what it said was, in 
doing the history, the foreign policy, foreign relations of the 
United States for the foreign relations series, that series, 
that record, should be comprehensive and accurate. That word, 
comprehensive, covers a lot of territory. It did not say 
exactly what to declassify, but it did say that those things 
had to be reviewed and what was published had to be 
comprehensive.
    That has been an enormous success. To be quite honest, the 
CIA, I think, was quite unwilling to cooperate in the 
beginning, and I must say right now has become quite willing to 
cooperate. It has been a process of 9 years of negotiating, 
arguing, disagreeing, agreeing, and it is my opinion now that 
there is a sense of cooperation between the CIA and the State 
Department on this declassification issue. That agreement, by 
the way, follows pretty much the general guidelines that Mr. 
Woolsey outlined as to what can and cannot be declassified. To 
me, the key difference here is that our committee, the 
Historical Advisory Committee, would not go away, and that 
meant it had to be dealt with in a straightforward, honest, 
responsible manner; and the result has been positive.
    Chairman Thompson. Mr. Woolsey, you, perhaps, are the only 
one here that has been on the receiving end of declassification 
advice from organizations that might be analogous to the 
proposed board. What was your experience as Director of CIA 
with bodies such as the CIA's Historical Review Panel, the 
Interagency Classification Appeals Panel and Security Policy 
Advisory Board? How useful did you find the advice from such 
organizations? Did they make recommendations to you or others 
about these matters? Did they ever offer their opinions on any 
special search or other similar undertaking? Did they ever talk 
you out of a search or help you do so?
    Mr. Woolsey. I did not get too involved in decisions about 
individual searches, Mr. Chairman. As a general rule, I took 
over the DCI job in early 1993, just a little more than a year 
after, essentially, the demise of the Soviet Union and the end 
of the Cold War. So, it was fairly early in the transitional 
period and, to be, I think, fair to the people who were 
involved in this, they understandably still had, in many ways, 
a kind of a Cold War mentality about this issue, especially 
with respect to releasing material about Russia, China, Eastern 
Europe and the like.
    But my predecessor, Bob Gates, had made a very good 
beginning by ordering the release of a number of estimates of 
the Soviet Union on the very excellent theory that since the 
Soviet Union did not exist anymore, one could have a 
considerably more liberal attitude toward releasing estimates 
than, say, with respect to China, which very much still existed 
with the same government that it had during the Cold War and 
for which release of some types of estimates could create 
political and diplomatic problems. But the Soviet Union was 
gone. They were just starting to come to terms with that, and I 
think there was some enthusiasm among some of the top people 
for following on Bob's initiative, and that is what led us to 
take, first, an initial look at these Cold War covert actions, 
and for me to order the release of a number of those.
    I was disappointed later to find, within the last few 
years, that some of that material did not exist or was not 
released for one reason or another. Some of it was released. 
But that was, frankly, my major involvement, not individual 
searches or individual material. What would happen is you would 
continually get, at budget time, the poor people who had to do 
this coming up and saying, ``Look we have reduced our backlog 
on FOIA requests by such-and-such, our backlog on this by so-
and-so much, but we are losing ground because we are getting 
all of these special searches and so forth.''
    It is a continual struggle, largely over money, because you 
can do a lot of these documents and do them intelligently if 
you are willing to pay for it. There are a number of retirees 
around Washington area who have expertise and are quite bright 
and able people who are willing, on a part-time basis, to come 
in and read through materials, some of which they were familiar 
with when they were on the inside, and to make these kinds of 
judgments. But they have to be paid. That is what it really 
almost always comes down to: Are the intelligence committees 
and the appropriations committees willing to fund things like 
substantial increases in payments for retirees, to come back 
and read through records? That is what it really kind of comes 
down to.
    Chairman Thompson. Gentlemen, thank you very much. It is 
past noon now, and I think we ought to adjourn. But this has 
been extremely helpful. Under Senator Moynihan's leadership, 
perhaps we can move the ball down the field a little bit 
further with regard to this complex, difficult issue.
    Thank you very much for your cooperation and your testimony 
today. The record will remain open for 2 weeks following the 
close of this hearing.
    [Whereupon, at 12.11 a.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6249.001

[GRAPHIC] [TIFF OMITTED] T6249.002

[GRAPHIC] [TIFF OMITTED] T6249.003

[GRAPHIC] [TIFF OMITTED] T6249.004

[GRAPHIC] [TIFF OMITTED] T6249.005

[GRAPHIC] [TIFF OMITTED] T6249.006

[GRAPHIC] [TIFF OMITTED] T6249.007

[GRAPHIC] [TIFF OMITTED] T6249.008

[GRAPHIC] [TIFF OMITTED] T6249.009

[GRAPHIC] [TIFF OMITTED] T6249.010

[GRAPHIC] [TIFF OMITTED] T6249.011

[GRAPHIC] [TIFF OMITTED] T6249.012

[GRAPHIC] [TIFF OMITTED] T6249.013

[GRAPHIC] [TIFF OMITTED] T6249.014

[GRAPHIC] [TIFF OMITTED] T6249.015

[GRAPHIC] [TIFF OMITTED] T6249.016

[GRAPHIC] [TIFF OMITTED] T6249.017

[GRAPHIC] [TIFF OMITTED] T6249.018

[GRAPHIC] [TIFF OMITTED] T6249.019

[GRAPHIC] [TIFF OMITTED] T6249.020

[GRAPHIC] [TIFF OMITTED] T6249.021

[GRAPHIC] [TIFF OMITTED] T6249.022

[GRAPHIC] [TIFF OMITTED] T6249.023

[GRAPHIC] [TIFF OMITTED] T6249.024

[GRAPHIC] [TIFF OMITTED] T6249.025

[GRAPHIC] [TIFF OMITTED] T6249.026

[GRAPHIC] [TIFF OMITTED] T6249.027

[GRAPHIC] [TIFF OMITTED] T6249.028

[GRAPHIC] [TIFF OMITTED] T6249.029

[GRAPHIC] [TIFF OMITTED] T6249.030

[GRAPHIC] [TIFF OMITTED] T6249.031

[GRAPHIC] [TIFF OMITTED] T6249.032

[GRAPHIC] [TIFF OMITTED] T6249.033

[GRAPHIC] [TIFF OMITTED] T6249.034

[GRAPHIC] [TIFF OMITTED] T6249.035

[GRAPHIC] [TIFF OMITTED] T6249.036

[GRAPHIC] [TIFF OMITTED] T6249.037

[GRAPHIC] [TIFF OMITTED] T6249.038

[GRAPHIC] [TIFF OMITTED] T6249.039

[GRAPHIC] [TIFF OMITTED] T6249.040

[GRAPHIC] [TIFF OMITTED] T6249.041

[GRAPHIC] [TIFF OMITTED] T6249.042

[GRAPHIC] [TIFF OMITTED] T6249.043

[GRAPHIC] [TIFF OMITTED] T6249.044

[GRAPHIC] [TIFF OMITTED] T6249.045

[GRAPHIC] [TIFF OMITTED] T6249.046

[GRAPHIC] [TIFF OMITTED] T6249.047

[GRAPHIC] [TIFF OMITTED] T6249.048

[GRAPHIC] [TIFF OMITTED] T6249.049

[GRAPHIC] [TIFF OMITTED] T6249.050

[GRAPHIC] [TIFF OMITTED] T6249.051

[GRAPHIC] [TIFF OMITTED] T6249.052

[GRAPHIC] [TIFF OMITTED] T6249.053

[GRAPHIC] [TIFF OMITTED] T6249.054

[GRAPHIC] [TIFF OMITTED] T6249.055

[GRAPHIC] [TIFF OMITTED] T6249.056

[GRAPHIC] [TIFF OMITTED] T6249.057

[GRAPHIC] [TIFF OMITTED] T6249.058

[GRAPHIC] [TIFF OMITTED] T6249.059

[GRAPHIC] [TIFF OMITTED] T6249.060

[GRAPHIC] [TIFF OMITTED] T6249.061

[GRAPHIC] [TIFF OMITTED] T6249.062

[GRAPHIC] [TIFF OMITTED] T6249.063

[GRAPHIC] [TIFF OMITTED] T6249.064

[GRAPHIC] [TIFF OMITTED] T6249.065

[GRAPHIC] [TIFF OMITTED] T6249.066

[GRAPHIC] [TIFF OMITTED] T6249.067

[GRAPHIC] [TIFF OMITTED] T6249.068

[GRAPHIC] [TIFF OMITTED] T6249.069

[GRAPHIC] [TIFF OMITTED] T6249.070

[GRAPHIC] [TIFF OMITTED] T6249.071

[GRAPHIC] [TIFF OMITTED] T6249.072

[GRAPHIC] [TIFF OMITTED] T6249.073

[GRAPHIC] [TIFF OMITTED] T6249.074

[GRAPHIC] [TIFF OMITTED] T6249.075

[GRAPHIC] [TIFF OMITTED] T6249.076

[GRAPHIC] [TIFF OMITTED] T6249.077

[GRAPHIC] [TIFF OMITTED] T6249.078

[GRAPHIC] [TIFF OMITTED] T6249.079

[GRAPHIC] [TIFF OMITTED] T6249.080

                                   - 

</pre></body></html>
